Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    MEDICARE ADVANTAGE
ORGANIZATIONS’ IDENTIFICATION
OF POTENTIAL FRAUD AND ABUSE




                    Daniel R. Levinson
                     Inspector General
                       February 2012
                      OEI-03-10-00310
EXECUTIVE SUMMARY: MEDICARE ADVANTAGE ORGANIZATIONS’
IDENTIFICATION OF POTENTIAL FRAUD AND ABUSE
OEI-03-10-00310

WHY WE DID THIS STUDY

The Medicare Advantage (MA) program has become a significant part of Medicare in both
cost and enrollment. MA organizations offer plans under Medicare Part C that cover services
a beneficiary would receive under Medicare Parts A and B; many plans also offer prescription
drug coverage under Part D. MA organizations’ efforts to identify and address potential fraud
and abuse are crucial to protecting the integrity of the MA program. Prior to this report, no
study had examined potential fraud and abuse identified by MA organizations. CMS requires
MA organizations to have compliance plans that include measures to detect, correct, and
prevent fraud, waste, and abuse. However, CMS does not require MA organizations to report
the results of their efforts to identify and address potential fraud and abuse incidents.

HOW WE DID THIS STUDY

We collected and reviewed data from 170 of 188 MA organizations that offered plans in
2009. These MA organizations represented 4,547 plans nationwide and accounted for
94 percent of all Medicare beneficiaries enrolled in MA plans in 2009. We collected and
summarized the numbers of potential fraud and abuse incidents, inquiries, corrective actions,
and referrals related to these plans in 2009. We also categorized the types of potential fraud
and abuse incidents and corrective actions that MA organizations reported.

WHAT WE FOUND

Nineteen percent of MA organizations did not identify any potential fraud and abuse incidents
related to their Part C health benefits and Part D drug benefits in 2009. MA organizations that
identified potential fraud and abuse in 2009 reported between 1 incident and 1.1 million
incidents. Three MA organizations identified 95 percent of the total 1.4 million reported
incidents. Differences in the way organizations defined and detected potential fraud and
abuse may account for some of the variability in the number of incidents they identified.
While CMS requires MA organizations to initiate inquiries and corrective actions where
appropriate, not all MA organizations took such steps in response to incidents they identified.
Overall, MA organizations sent 2,656 referrals of potential fraud and abuse incidents to other
entities for further investigation in 2009.

WHAT WE RECOMMEND

Our findings indicate that MA organizations lack a common understanding of key fraud and
abuse program terms and raise questions about whether all MA organizations are
implementing their programs to detect and address potential fraud and abuse effectively.
Therefore, we recommend that CMS: (1) ensure that MA organizations are implementing
programs to detect, correct, and prevent fraud, waste, and abuse, as required in their
compliance plans, so that all potential Part C and Part D fraud and abuse incidents are
identified; (2) review MA organizations to determine why certain organizations reported
especially high or low volumes of potential Part C and Part D fraud and abuse incidents and
inquiries; (3) develop specific guidance for MA organizations on defining potential Part C and
Part D fraud and abuse incidents and inquiries; (4) require MA organizations to report to CMS
aggregate data related to their Part C and Part D antifraud, waste, and abuse activities;
(5) ensure that all MA organizations are responding appropriately to potential fraud and abuse
incidents; and (6) require MA organizations to refer potential fraud and abuse incidents that
may warrant further investigation to CMS or other appropriate entities. CMS concurred with
our first, third, and fifth recommendations. CMS did not concur or concurred in part with our
second, fourth, and sixth recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................5
Findings........................................................................................................8
         Nineteen percent of MA organizations did not identify any
         potential fraud and abuse incidents in 2009 .......................................8
         MA organizations that identified fraud and abuse reported
         between 1 incident and 1.1 million incidents; differences in the
         way MA organizations defined and detected potential fraud and
         abuse may account for some of this variability ..................................8
         CMS requires MA organizations to initiate inquiries and
         corrective actions where appropriate, but not all MA organizations
         took such steps in response to incidents they identified...................10
         MA organizations sent 2,656 referrals of potential Part C and
         Part D fraud and abuse incidents to other entities in 2009 ...............12
Recommendations ......................................................................................14
         Agency Comments and Office of Inspector General Response .......16
Appendixes ................................................................................................19
         A: Potential Fraud and Abuse Incidents, Inquiries, Corrective
         Actions, and Referrals for All Medicare Advantage
         Organizations in 2009 ......................................................................19
         B: Fraud and Abuse Activities by MA Organization for 2009 ........20
         C: Types of Potential Part C and Part D Fraud and Abuse
         Identified by Medicare Advantage Organizations in 2009 ...............35
         D: Types of Corrective Actions Initiated by Medicare
         Advantage Organizations in 2009 ....................................................40
         E: Referrals to Other Entities for Further Investigation by
         Medicare Advantage Organizations in 2009 ....................................41
         F: Agency Comments ......................................................................42
Acknowledgments......................................................................................45
                  OBJECTIVES
                  1. To determine the extent to which Medicare Advantage (MA)
                       organizations identify potential fraud and abuse related to their Part C
                       and, if applicable, Part D plans.
                  2. To determine the extent to which MA organizations conduct inquiries,
                       initiate corrective actions, and make referrals for further investigation
                       in response to potential fraud and abuse incidents.

                  BACKGROUND
                  Medicare beneficiaries generally have the option to receive their benefits
                  through the traditional Medicare fee-for-service program or through
                  private plans. Private insurance companies, known as MA organizations,
                  contract with the Centers for Medicare & Medicaid Services (CMS) under
                  Medicare Part C to provide beneficiaries with private health plan options,
                  including managed care plans. MA plans include coverage for services
                  that a beneficiary would receive under Medicare Parts A and B and may
                  cover additional services, such as outpatient prescription drugs.
                  In 2010, 24 percent of Medicare beneficiaries were enrolled in MA plans. 1
                  MA program expenses were $115 billion of the total $504 billion in
                  Medicare benefit payment expenses in fiscal year 2010. 2 For 2011, the
                  Medicare Payment Advisory Commission (MedPAC) estimates that CMS
                  will spend approximately 10 percent more for beneficiaries enrolled in
                  MA plans than CMS would have spent if the beneficiaries had stayed in
                  fee-for-service Medicare. 3 In its Fiscal Year 2010 Agency Financial
                  Report, the Department of Health and Human Services (HHS) reported a
                  composite payment error rate of 14.1 percent for the MA program. 4
                  The MA program has become a significant component of Medicare both in
                  cost and enrollment; however, prior to this report, no study had examined
                  potential fraud and abuse identified by MA organizations. This report
                  provides details on the results of MA organizations’ efforts to identify and
                  address potential Part C and Part D fraud and abuse.


                  1 Kaiser Family Foundation (KFF), Medicare Chartbook, Fourth Edition, November 2010. Accessed at
                  http://facts.kff.org/chart.aspx?cb=58&sctn=165&ch=1755 on July 7, 2011.
                  2 CMS, CMS Financial Report Fiscal Year 2010, November 2010, p. 5. Accessed at

                  http://www.cms.gov/CFOReport/Downloads/2010_CMS_Financial_Report.pdf on July 7, 2011.
                  3 MedPAC, Report to the Congress: Medicare and the Health Care Delivery System, June 2011, p. 70. Accessed at

                  http://www.medpac.gov/documents/jun11_entirereport.pdf on July 7, 2011.
                  4 HHS, FY 2010 Agency Financial Report, November 15, 2010, p. III-18. Accessed at

                  http://www.hhs.gov/afr/2010afr-fullreport.pdf on August 9, 2011.


OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse                         1
                  Medicare Advantage Program
                  The Medicare Prescription Drug, Improvement, and Modernization Act of
                  2003 (MMA) made several important changes to Medicare managed care
                  and renamed the program Medicare Advantage. 5 The MMA also
                  established Part D to provide an optional outpatient prescription drug
                  benefit for all beneficiaries. 6 Many MA organizations offer managed care
                  plans that provide beneficiaries with additional coverage for outpatient
                  prescription drugs through Part D. In fact, MA organizations that offer
                  plans such as health maintenance organizations (HMO) must offer at least
                  one plan that includes Part D prescription drug coverage. 7 Therefore,
                  many MA organizations operate as both Part C and Part D contractors.
                  In 2009, 188 MA organizations offered 4,718 plans across the Nation.
                  Sixty-seven percent of the 10.9 million beneficiaries enrolled in MA plans
                  in 2009 were in HMOs or local preferred provider organization plans. In
                  the same year, 3,471 of 4,718 MA plans offered Part D prescription drug
                  coverage. Eighty-seven percent of MA beneficiaries were enrolled in
                  these MA Prescription Drug (MAPD) plans in 2009.
                  Detecting and Deterring Fraud and Abuse
                  MA organizations’ processes and programs for identifying and addressing
                  potential fraud and abuse are critical to protecting the integrity of the MA
                  program. CMS requires MA organizations to have compliance plans that
                  include measures to detect, correct, and prevent fraud, waste, and abuse. 8
                  Among other requirements, these compliance plans must include
                  procedures for ensuring prompt responses to detected instances of fraud
                  and abuse, such as conducting timely inquiries, initiating corrective
                  actions (e.g., repayment of overpayments, disciplinary actions against
                  responsible employees), and voluntarily self-reporting fraud and abuse to
                  CMS. 9, 10 In a 2010 Call Letter to MA organizations, CMS announced that
                  it planned to assess the effectiveness of MA organizations’ compliance




                  5 MMA, P.L. 108-173 § 201, 42 U.S.C. § 1395w-21 note.
                  6 MMA, P.L. 108-173 § 101, Social Security Act, title XVIII, part D, 42 U.S.C. § 1395w-101, et seq.
                  7 42 CFR § 422.4(c); 42 CFR § 423.104(f)(3); CMS, Medicare Managed Care Manual, Pub. No. 100-16
                  (Rev. 87, June 8, 2007), ch. 4, § 10.3.
                  8 42 CFR § 422.503(b)(4)(vi); 42 CFR § 423.504(b)(4)(vi).
                  9 42 CFR § 422.503(b)(4)(vi)(G); 42 CFR § 423.504(b)(4)(vi)(G).
                  10 In the preamble to the December 5, 2007, Final Rule, 76 Fed. Reg. 68700, CMS stated that it is committed to

                  adopting a mandatory self-reporting requirement. As of January 2012, CMS had not issued any regulation mandating
                  such a requirement.


OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse                              2
                  plans during 2010. 11 CMS conducted 27 of these fraud and abuse
                  compliance plan audits in 2010. 12
                  Although private managed care options have been available to Medicare
                  beneficiaries for many years, CMS has only recently selected contractors
                  to oversee and conduct reviews of MA program integrity. In 2008, CMS
                  expanded the Medicare drug integrity contractors’ (MEDIC)
                  responsibilities to include not only Part D but also Part C program
                  integrity activities.
                  Fraud and Abuse Incidents. In its Medicare Program Integrity Manual,
                  CMS defined fraud as “the intentional deception or misrepresentation that
                  [an] individual knows to be false or does not believe to be true, and the
                  individual makes knowing that the deception could result in some
                  unauthorized benefit to himself/herself or some other person.” 13 CMS
                  defined abuse as “[b]illing Medicare for services that are not covered or
                  are not correctly coded.” 14 MA organizations may identify potential fraud
                  and abuse incidents through internal efforts, such as claim reviews and
                  routine audits, or through external sources, such as complaints from
                  beneficiaries and referrals from law enforcement agencies. 15
                  Many different types of fraud and abuse may occur in MA organizations.
                  Fraud may be committed by MA organizations themselves, within their
                  network of contracted providers, or by beneficiaries. Examples of fraud
                  and abuse within an MA organization include improper marketing and
                  enrollment practices, such as misrepresenting covered benefits to
                  prospective enrollees; arranging inappropriate payment and financial
                  practices with contracted providers; and denying payment for
                  Medicare-approved treatments. Examples of fraud and abuse by
                  contracted providers include undertreating patients, placing unreasonable
                  restrictions on referrals for specialists or ancillary services
                  (e.g., x-ray, imaging, laboratory), and inappropriate prescription
                  dispensing. Examples of fraud and abuse by beneficiaries include
                  diverting prescriptions, stockpiling medications, and misrepresenting
                  eligibility information to obtain services.




                  11 CMS, 2010 Call Letter, March 30, 2009, p. 26. Accessed at

                  http://www.cms.gov/PrescriptionDrugCovContra/Downloads/2010CallLetter.pdf on May 12, 2010.
                  12 Director, Program Compliance and Oversight Group, CMS, presentation slides (pp. 4–7), CMS Compliance

                  Program Audits: Medicare Advantage & Prescription Drug Plan Sponsors, July 6, 2011, for the HHS
                  Office of Inspector General (OIG).
                  13 CMS, Medicare Program Integrity Manual, Pub. No. 100-08, Exhibit 1-Definitions.
                  14 Ibid.
                  15 42 CFR § 422.503(b)(4)(vi)(F); 42 CFR § 423.504(b)(4)(vi)(F).


OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse                         3
                  Inquiries. MA organizations are required to conduct a timely, reasonable
                  inquiry when evidence suggests potential fraud and abuse related to
                  payment or delivery of items or services under the contract. 16
                  Corrective Actions and Referrals. In response to potential fraud and
                  abuse, MA organizations are required to carry out appropriate corrective
                  actions. 17 Corrective actions are measures that an MA organization takes
                  to correct a current incident of potential fraud and abuse or to reduce the
                  risk that fraud and abuse will occur in the future. Examples of corrective
                  actions are repayment of overpayments; provider education; procedure
                  changes; and disciplinary action against responsible individuals, including
                  termination from a network. An organization may perform multiple
                  corrective actions in response to an incident of potential fraud and abuse,
                  such as requiring a provider to repay an overpayment and subjecting the
                  provider’s future claims to prepayment review.
                  MA organizations may refer potential fraud and abuse incidents to a
                  number of other entities for further investigation, including CMS, State
                  agencies, State insurance commissioners, the Department of
                  Justice (DOJ), OIG, and local law enforcement agencies. CMS also
                  recommends that MA organizations have procedures in place to
                  “voluntarily self-report potential fraud or misconduct related to the MA
                  program to CMS or its designee.” 18
                  Fraud and Abuse Reporting. In its comments on an October 2008 OIG
                  report, CMS stated that it “believes that it is important for the government
                  to have information on potential fraud, waste, and abuse as soon as
                  possible …” 19 However, CMS does not require MA organizations to
                  report information on their identification of potential fraud and abuse
                  beyond the requirement to report the number of enrollee grievances related
                  to fraud and abuse each quarter. 20 Beginning in calendar year 2010,
                  MAPD plans may voluntarily report to CMS aggregate data related to
                  their Part D antifraud, waste, and abuse activities, including the number of
                  incidents of potential fraud and abuse identified, inquiries and corrective
                  actions initiated, and potential fraud referrals made to CMS or law
                  enforcement authorities. 21


                  16 42 CFR § 422.503(b)(4)(vi)(G)(1); 42 CFR § 423.504(b)(4)(vi)(G)(1).
                  17 42 CFR § 422.503(b)(4)(vi)(G)(2); 42 CFR § 423.504(b)(4)(vi)(G)(2).
                  18 42 CFR § 422.503(b)(4)(vi)(G)(3); 42 CFR § 423.504(b)(4)(vi)(G)(3).
                  19 OIG, Medicare Drug Plan Sponsors’ Identification of Potential Fraud and Abuse, OEI-03-07-00380,
                  October 2008, p. 25. Accessed at http://oig.hhs.gov/oei/reports/oei-03-07-00380.pdf on July 12, 2011.
                  20 CMS, Medicare Part C Plan Reporting Requirements Technical Specification Document, May 7, 2011,
                  pp. 30–32.
                  21 CMS, Medicare Part D Reporting Requirements, January 1, 2010, § XIV.


OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse                             4
                  Related OIG Work
                  In a 2008 report, OIG found that 24 of 86 stand-alone Part D plan
                  sponsors did not identify any potential fraud and abuse incidents in the
                  first 6 months of 2007. 22 OIG also found that not all stand-alone Part D
                  plan sponsors that identified potential fraud and abuse incidents conducted
                  inquiries, initiated corrective actions, or made referrals for further
                  investigation. Stand-alone Part D plan sponsors are similar to MA
                  organizations in that they are private companies that contract with CMS to
                  offer health plans to beneficiaries. Both Part D plan sponsors and MA
                  organizations contract with health care providers and facilities to create
                  networks to provide health care services to Medicare beneficiaries.
                  In a 1998 report regarding CMS contractor fraud units, OIG found
                  vulnerabilities in these contractors’ efforts to identify potential fraud and
                  abuse. 23 OIG found that the meaning of key words and terms related to
                  fraud unit work varied across contractors and that this variation hindered
                  CMS’s ability to interpret data and measure fraud unit performance.

                  METHODOLOGY
                  Scope
                  We determined the extent to which MA organizations identified and
                  addressed potential fraud and abuse in 2009. During this period, there
                  were 188 MA organizations across the country. We did not include 14 MA
                  organizations in our review that had active contracts in 2009 because the
                  contracts were no longer active or the organizations were under
                  investigation during the time of our data collection. We excluded data
                  received from four MA organizations from our analysis because they
                  could not separate incidents related to their MA and MAPD plans from
                  incidents related to their other lines of Medicare or commercial business.
                  Of the 188 MA organizations in 2009, we reviewed data from 170, which
                  provided information on potential fraud and abuse incidents related to
                  their MA or MAPD plans. 24 These 170 organizations accounted for a total
                  of 597 MA contracts, 4,547 MA plans, and 10,581,744 enrollees.
                  Data Collection
                  CMS. We downloaded the MA contract enrollment data files from CMS’s
                  Web site for 2009. These files contained the number of enrollees for each
                  MA contract as well as information about the type of contract. We used
                  these data to identify MA organizations with MA and MAPD contracts in

                  22 OIG, Medicare Drug Plan Sponsors’ Identification of Potential Fraud and Abuse, OEI-03-07-00380, October 2008.
                  23 OIG, Fiscal Intermediary Fraud Units, OEI-03-97-00350, November 1998.
                  24 One of the 170 MA organizations did not operate any MAPD plans in 2009.


OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse                          5
                  2009. We excluded MA organizations that had only cost, demonstration,
                  or Program of All-Inclusive Care for the Elderly (PACE) contracts. 25, 26, 27
                  We downloaded the compliance officer contact information from CMS’s
                  Health Plan Management System for the remaining MA organizations.
                  MA Organizations. We designed an electronic survey and sent it to MA
                  organizations’ Medicare compliance officers. We requested that MA
                  organizations report how they identified potential fraud and abuse and the
                  number of incidents of potential fraud and abuse they identified in 2009
                  for all of their MA contracts, including MAPD contracts. For these
                  incidents, we asked MA organizations to report the types of potential fraud
                  and abuse identified, the strategies that yielded the potential fraud and
                  abuse incidents, the number of inquiries conducted, and the number and
                  types of corrective actions initiated. We also requested the number of
                  incidents they referred to CMS, MEDICs, law enforcement authorities,
                  and other entities for further investigation. We received responses from all
                  of the MA organizations we surveyed.
                  Our electronic survey software assigned an identification number to each
                  MA organization in our review. We use these identification numbers in
                  our report to enable the reader to identify information related to the same
                  MA organization across the findings and in Appendix B while still
                  maintaining the confidentiality of the organization.
                  Analysis
                  We included survey responses from 170 MA organizations in our analysis.
                  We reviewed, coded, and summarized narrative information regarding
                  strategies organizations used to identify potential fraud and abuse
                  incidents. We calculated the number of potential Part C and Part D
                  incidents identified across MA organizations in 2009. We grouped
                  organizations into six size categories based on the number of enrollees.
                  We categorized the types of incidents reported and calculated the total
                  number of incidents of each type. We calculated the total number of
                  inquiries conducted in response to incidents. We also calculated and
                  summarized the number and types of corrective actions initiated in
                  response to incidents. Finally, we calculated the total number of incidents
                  referred to other entities for further investigation.




                  25 Medicare payments for cost contracts are based on the reasonable costs of providing services to enrollees.
                  26 Demonstration contracts test improvements in Medicare coverage, payment, and quality of care. These contracts

                  usually operate for a limited time, for a specific group of people, and/or are offered only in specific areas.
                  27 PACE is a benefit that features a comprehensive service delivery system and integrated Medicare and Medicaid

                  financing.


OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse                                6
                  Limitations
                  The information we received from MA organizations was self-reported.
                  We did not collect from MA organizations any documentation relating to
                  the potential fraud and abuse incidents, inquiries, corrective actions, or
                  referrals they reported to verify their responses to our survey.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse   7
                  FINDINGS
                  Nineteen percent of MA organizations did not identify
                  any potential fraud and abuse incidents in 2009
                  All of the MA organizations in our review reported having compliance
                  plans in place as required by CMS. These compliance plans must include
                  a program to detect, correct, and prevent fraud, waste, and abuse. 28
                  However, the efforts of 19 percent of MA organizations (33 of 170) to
                  detect fraud and abuse did not yield any potential incidents related to both
                  their Part C health benefits and Part D drug benefits in 2009.
                  An additional 24 organizations identified Part C incidents but no Part D
                  incidents. Another 11 MA organizations identified Part D incidents but no
                  Part C incidents.
                  Enrollment in these 68 MA organizations totaled 571,623 beneficiaries
                  and ranged from an organization with 114 members to an organization
                  with 55,876 members. Fourteen of the sixty-eight organizations
                  accounted for fewer than 1,000 enrollees each.

                  MA organizations that identified fraud and abuse
                  reported between 1 incident and 1.1 million incidents;
                  differences in the way MA organizations defined and
                  detected potential fraud and abuse may account for
                  some of this variability
                  One hundred thirty-seven MA organizations identified a total of
                  1,431,683 incidents of potential Part C and Part D fraud and abuse
                  in 2009. The volume of incidents identified varied significantly.
                  Fourteen organizations each identified more than 1,000 incidents. In
                  contrast, 41 organizations each identified fewer than 10 incidents in 2009.
                  Appendix A provides the total numbers of incidents identified across MA
                  organizations. Appendix B provides the numbers of incidents reported by
                  individual MA organizations.
                  Three MA organizations identified 95 percent of all potential
                  fraud and abuse incidents in 2009
                  Three organizations were responsible for 1,358,184, or 95 percent, of all
                  potential Part C and Part D incidents. The majority of these were related
                  to two MA organizations’ Part C health benefits. Table 1 provides specific
                  information on the numbers of MA enrollees, potential Part C incidents,
                  and potential Part D incidents for each of these three MA organizations.

                  28 42 CFR § 422.503(b)(4)(vi); 42 CFR § 423.504(b)(4)(vi).


OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse   8
     Table 1: Three MA Organizations Were Responsible for 95 Percent of Potential
     Fraud and Abuse Incidents Identified in 2009
                                                  Number of          Number of        Total Number     Percentage of
      MA                                            Potential          Potential        of Potential    All Incidents
                          Number of MA
      Organization                              Part C Fraud       Part D Fraud          Fraud and       Identified in
                             Enrollees
      Identifier                                 and Abuse          and Abuse                Abuse               2009
                                                   Incidents          Incidents           Incidents       (1,431,683)

      178                   Over 250,000           1,010,233             100,909           1,111,142             78%

      34                20,000 to 49,999             200,111                2,377            202,488             14%

      112                 5,000 to 19,999                    0             44,554             44,554              3%

           Total                                   1,210,344             147,840           1,358,184             95%
       Source: OIG analysis of MA organizations’ survey responses and CMS enrollment data for 2009.


                   Ninety-five percent of the incidents (1,290,656 of 1,358,184) identified by
                   these 3 MA organizations were associated with 3 types of potential fraud
                   and abuse: improper coding (1,153,996 incidents), inappropriate billing
                   for prescriptions (104,550), and inappropriate prescription dispensing
                   (32,110). Appendix C contains a complete list of the number of incidents
                   associated with each type of potential fraud and abuse reported by MA
                   organizations for both Part C and Part D.
                   The remaining 134 MA organizations identified 73,499 potential
                   Part C and Part D fraud and abuse incidents in 2009
                   Excluding the incidents identified by the 3 MA organizations described
                   above, 134 organizations identified a total of 73,499 potential fraud and
                   abuse incidents in 2009. Eighty-three percent of these were related to Part
                   C. Specifically, 123 organizations identified 61,188 potential Part C fraud
                   and abuse incidents, and 108 organizations identified 12,311 potential
                   Part D fraud and abuse incidents.
                   These 134 organizations enrolled 9.9 million beneficiaries in 2009. All
                   MA organizations with more than 50,000 enrollees identified at least
                   1 incident of potential fraud and abuse, yet some smaller MA
                   organizations identified more incidents than their counterparts with larger
                   enrollment. For example, an organization with more than
                   250,000 enrollees identified 37 potential Part C fraud and abuse incidents
                   and 8 potential Part D incidents. Another organization, which had fewer
                   than 5,000 enrollees, identified 7,787 potential Part C fraud and abuse
                   incidents and 154 potential Part D incidents.
                   These 134 MA organizations reported 32 different types of Part C
                   incidents in 2009. The most common type of incident related to their
                   Part C health benefits was improper coding of services. MA organizations
                   identified 25 different types of potential fraud and abuse incidents related
                   to Part D; inappropriate prescription dispensing was the most common
                   type.

OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse                      9
                  Differences in the way MA organizations defined and detected
                  potential fraud and abuse may account in part for the wide
                  variation in the number of incidents identified
                  The number of potential fraud and abuse incidents reported by MA
                  organizations may depend on how broadly they define potential fraud and
                  abuse. MA organization 178 identified the highest number of incidents
                  in 2009. This organization reported that it took “an expansive view” of
                  potential fraud and abuse. It defined a potential fraud and abuse incident
                  as any claim line flagged by its prepayment edit system. MA
                  organization 34 also identified a high number of incidents and reported
                  that it used claims editing and auditing software to screen claims for
                  potential improper coding. This organization considered all claims
                  identified by this software as potential fraud and abuse incidents. Other
                  organizations also described using claims monitoring, prepayment
                  reviews, and software packages specifically designed to screen claims to
                  identify potential fraud and abuse. However, some of these MA
                  organizations reported low numbers of incidents. Therefore, it would
                  seem that not all MA organizations defined every item identified by these
                  detection methods as a potential fraud and abuse incident.
                  Some MA organizations did not report using any proactive methods
                  (e.g., claims monitoring) to identify their potential Part C and/or Part D
                  fraud and abuse incidents. Many organizations indicated that they used
                  hotlines and other reporting and complaint mechanisms, along with other
                  types of fraud and abuse detection methods, to identify potential fraud and
                  abuse. However, some organizations reported relying solely on hotlines
                  and complaints to identify potential Part C and/or Part D incidents. These
                  organizations identified 12 or fewer incidents in 2009.

                  CMS requires MA organizations to initiate inquiries
                  and corrective actions where appropriate, but not all
                  MA organizations took such steps in response to
                  incidents they identified
                  CMS requires MA organizations to conduct a timely, reasonable inquiry
                  when evidence suggests potential fraud or abuse related to payment or
                  delivery of items or services under their contracts. 29 In addition, CMS
                  requires MA organizations to carry out appropriate corrective actions in
                  response to potential fraud and abuse. 30 However, 11 organizations did
                  not initiate any inquiries in response to 14,681 potential Part C fraud and
                  abuse incidents they identified in 2009; 19 organizations did not initiate


                  29 42 CFR § 422.503(b)(4)(vi)(G)(1).
                  30 42 CFR § 422.503(b)(4)(vi)(G)(2).


OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse   10
                  any inquiries in response to 3,387 Part D incidents. Furthermore,
                  25 organizations did not initiate any corrective actions in response to
                  5,300 Part C incidents they identified in 2009, and 39 organizations did
                  not initiate any corrective actions for 2,979 Part D incidents.
                  Appendix A provides the total numbers of potential Part C and Part D
                  fraud and abuse incidents, inquiries, and corrective actions reported by
                  MA organizations.
                  MA organizations reported initiating 1.2 million inquiries;
                  however, MA organizations had different interpretations of
                  what constitutes an inquiry
                  MA organizations initiated a total of 1,188,269 inquiries in response
                  to the potential Part C and Part D fraud and abuse incidents they
                  identified in 2009. MA organizations each initiated between
                  1 and 1,111,142 inquiries.
                  Differences in the ways some MA organizations defined and tracked
                  inquiries may account for some of the variation in the number of inquiries
                  they reported. For example, MA organization 178 reported that it initiated
                  the same number of inquiries as the number of potential fraud and abuse
                  incidents it identified. Specifically, this organization reported conducting
                  1,010,233 Part C inquiries and 100,909 Part D inquiries. This
                  organization defined potential fraud and abuse incidents as all claim lines
                  caught by its prepayment edit system and considered the automated
                  remittance advice letters generated by the prepayment system to be
                  inquiries. 31
                  Although we did not ask all MA organizations to describe how they
                  defined inquiries, we asked for descriptions from seven organizations that
                  reported conducting more inquiries than the total number of potential
                  fraud and abuse incidents they identified. One of these defined the
                  number of inquiries it conducted as the number of internal staff members
                  who investigated a particular potential fraud and abuse incident. Another
                  organization defined inquiries as “the number of unique contacts that
                  [their] organization made during the investigation of each incident.” A
                  third organization reported that some of the potential fraud and abuse
                  incidents it identified were associated with “more than one type of
                  suspicious activity which resulted in more than one inquiry.” This
                  organization defined an inquiry as an “investigative action.”




                  31 A remittance advice letter is a notice of payments and adjustments sent to providers of health care services. It
                  explains the payments and adjustments made on the providers’ processed claims.


OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse                                  11
                  MA organizations reported initiating 1.1 million corrective
                  actions; 1 organization represented 98 percent of these
                  MA organizations reported initiating a total of 1,134,063 corrective
                  actions in response to the potential fraud and abuse incidents they
                  identified in 2009. Ninety-eight percent of these corrective actions were
                  initiated by MA organization 178, which defined the prepayment claim
                  edits it used to identify potential fraud and abuse as corrective actions.
                  This organization reported that it initiated 1,111,140 corrective actions in
                  response to the 1,111,142 potential Part C and Part D incidents it
                  identified. Another 25 organizations initiated at least as many corrective
                  actions as the number of incidents they reported in 2009. In contrast,
                  6 of the organizations that identified more than 1,000 potential fraud and
                  abuse incidents initiated fewer than 8 corrective actions for every
                  100 incidents they identified. For example, MA organization 36 initiated
                  2 corrective actions in response to 12,512 incidents. Appendix D provides
                  a complete list of the types of corrective actions initiated by MA
                  organizations.

                  MA organizations sent 2,656 referrals of potential
                  Part C and Part D fraud and abuse incidents to other
                  entities in 2009
                  MA organizations sent a total of 2,656 referrals of potential Part C and
                  Part D fraud and abuse incidents to more than 13 different entities for
                  further investigation in 2009. MA organizations may send the same
                  incident to more than one entity. For example, one organization referred
                  the same Part C incident to both DOJ and State and local law enforcement
                  authorities. Appendix E provides the numbers of Part C and Part D
                  referrals MA organizations sent to other entities in 2009.
                  Two of the three MA organizations that reported the highest
                  numbers of incidents made only 40 referrals in 2009
                  Although MA organization 178 conducted over 1 million inquiries and
                  initiated over 1 million corrective actions, it referred only 39 of the
                  1,111,142 potential fraud and abuse incidents it identified to other entities
                  for further investigation. All but one of these referrals were directed to
                  MEDICs. MA organization 34 referred only 1 of the 202,488 incidents it
                  identified to a MEDIC for further investigation. MA organization 112 did
                  not refer any of the 44,554 Part D incidents it identified in 2009.
                  The remaining MA organizations made 2,616 referrals of
                  potential Part C and Part D incidents in 2009
                  Seventy MA organizations sent a total of 1,689 referrals of potential
                  Part C fraud and abuse incidents to other entities for further investigation
                  in 2009. MA organizations referred these Part C incidents to more than

OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse   12
                  12 different entities, including State insurance commissioners, OIG, and
                  MEDICs. In contrast, 53 organizations that identified 35,779 potential
                  Part C incidents in 2009 did not refer any incidents to other entities.
                  Fifty-six MA organizations made 927 referrals of potential Part D fraud
                  and abuse incidents they identified in 2009 to other entities for further
                  investigation. Most referred incidents were directed to MEDICs, DOJ,
                  and State and local law enforcement agencies. Fifteen of these
                  organizations each referred just one potential Part D incident.
                  Fifty-two MA organizations identified 7,732 Part D incidents in 2009, but
                  did not make any referrals for further investigation.




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse   13
                  RECOMMENDATIONS
                  MA organizations’ efforts to identify and address potential fraud and abuse
                  are crucial to protecting the integrity of the MA program. These
                  organizations are required to have compliance plans in place that include
                  programs to detect, correct, and prevent fraudulent and abusive activity.
                  CMS, however, does not require MA organizations to report, nor does it
                  routinely review, the results of organizations’ efforts to identify and
                  respond to potential fraud and abuse. Our review reveals that, in 2009, the
                  efforts of 19 percent of MA organizations did not yield any potential
                  Part C and Part D fraud and abuse incidents. Another 21 percent of
                  organizations did not identify potential fraud and abuse in either Part C or
                  Part D. These findings build upon the results of a prior OIG review that
                  revealed that more than one-quarter of stand-alone Part D plan sponsors
                  did not identify any potential fraud and abuse in 2007.
                  The volume of potential fraud and abuse incidents identified by MA
                  organizations varied significantly. Eight organizations identified just
                  1 incident in 2009, and 1 organization identified over 1 million potential
                  Part C and Part D fraud and abuse incidents. Also, not all organizations
                  that identified incidents conducted inquiries, initiated corrective actions, or
                  referred incidents to outside entities for further investigation.
                  These findings indicate that not all MA organizations have a common
                  understanding of key fraud and abuse program terms, including
                  “incident,” “inquiry,” and “corrective action.” In a 1998 report, OIG
                  identified similar issues relating to Medicare benefit integrity contractors’
                  definitions of key fraud and abuse terms. OIG found that variation in the
                  meaning of key words and terms across these contractors hindered CMS’s
                  ability to interpret their data and measure their performance.
                  In addition, our findings raise questions about whether all MA
                  organizations are implementing their programs to detect and address
                  potential fraud and abuse effectively.
                  Therefore, we recommend that CMS:
                  Ensure that MA organizations are implementing programs to
                  detect, correct, and prevent fraud, waste, and abuse, as
                  required in their compliance plans, so that all potential Part C
                  and Part D fraud and abuse incidents are identified
                  We recommend that CMS focus on the 33 MA organizations that did not
                  identify any potential fraud and abuse incidents related to their Part C
                  health benefits and Part D drug benefits in 2009 and the 35 MA
                  organizations that identified incidents related only to Part C or only to
                  Part D.

OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse   14
                  Review MA organizations to determine why certain
                  organizations reported especially high or low volumes of
                  potential Part C and Part D fraud and abuse incidents and
                  inquiries
                  From this review, CMS would be able to determine the extent to which the
                  extreme variation in reporting is due to (1) the lack of a common
                  understanding across MA organizations of key fraud and abuse terms; or
                  (2) the quality of their programs to detect, correct, and prevent fraud,
                  waste, and abuse.
                  Develop specific guidance for MA organizations on defining
                  potential Part C and Part D fraud and abuse incidents and
                  inquiries
                  CMS manuals and documents provide basic definitions of fraud and abuse
                  incidents and inquiries. However, our review indicates that some MA
                  organizations defined potential fraud and abuse incidents and inquiries
                  quite differently. These differences may have contributed to the wide
                  variation in the volume of incidents and inquiries MA organizations
                  reported for 2009. Clear and specific guidance regarding fraud and abuse
                  terms would promote common understanding across MA organizations
                  and help CMS to ensure comparability of fraud and abuse information
                  across MA organizations.
                  Require MA organizations to report to CMS aggregate data
                  related to their Part C and Part D antifraud, waste, and abuse
                  activities
                  MA organizations have had the option to voluntarily report aggregate
                  fraud and abuse activity data to CMS for their Part D plans since 2010.
                  CMS should require MA organizations to report this information for both
                  their Part C and Part D plans. CMS should use these data to target audits
                  and evaluate the effectiveness of MA organizations’ fraud, waste, and
                  abuse programs.
                  Ensure that all MA organizations are responding appropriately
                  to potential fraud and abuse incidents
                  As required by 42 CFR § 422.503(b)(4)(vi)(G), MA organizations must
                  conduct timely, reasonable inquiries and take appropriate corrective
                  actions in response to evidence of potential fraud and abuse. CMS may
                  want to focus on the MA organizations that identified potential fraud and
                  abuse incidents in 2009, but did not initiate any inquiries or take any
                  corrective actions.




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse   15
                  Require MA organizations to refer potential fraud and abuse
                  incidents that may warrant further investigation to CMS or
                  other appropriate entities
                  Current regulations stipulate only that MA organizations “should have
                  procedures to voluntarily self-report potential fraud or misconduct related
                  to the MA program to CMS or its designee.”

                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  In its comments on the draft report, CMS stated that MA organizations’
                  efforts to identify and address potential fraud and abuse are crucial to
                  protecting the integrity of the MA program. It concurred with our first
                  recommendation, to ensure that MA organizations are implementing their
                  programs to identify potential fraud and abuse. CMS stated that it
                  conducted 33 compliance plan audits in 2010 and that its annual audit
                  evaluation process uses various data to identify MA organizations that
                  present risks to the Part C and Part D programs. In addition, CMS noted
                  that it plans to provide an updated manual chapter to MA organizations
                  with instructions and guidance on how to implement a program to detect,
                  correct, identify, and prevent fraud, waste, and abuse.
                  CMS did not concur with our second recommendation, to review MA
                  organizations to determine why certain organizations reported especially
                  high or low volumes of potential fraud and abuse. CMS stated that, based
                  on enhancements it has made to compliance plan audits and the age of the
                  data used in OIG’s report, it does not believe it is necessary to contact the
                  MA organizations identified in the OIG study.
                  CMS performed audits of 27 MA organizations’ compliance plans for the
                  period 2006 through 2010. OIG agrees that these audits can provide
                  valuable information about the performance of the individual
                  organizations selected for review. However, the audits focused on a small
                  number of organizations and have not provided CMS with the information
                  it needs to identify trends and aberrancies and compare organizations’
                  antifraud efforts across the MA program. Until CMS requires MA
                  reporting of both Part C and Part D antifraud activities, the 2009 data
                  collected by OIG are the only comprehensive source of this information
                  for MA organizations. Therefore, OIG continues to recommend that CMS
                  review the data and determine the reasons for such significant differences
                  in the volume of fraud identification across MA organizations. This
                  analysis could help CMS to determine whether differences are related to
                  the quality of organizations’ antifraud programs or to the lack of common
                  understanding across organizations of key fraud and abuse terms.

OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse   16
                  CMS concurred with our third recommendation, to develop specific
                  guidance for MA organizations on defining potential fraud and abuse
                  incidents and inquiries. CMS noted that it is developing a Part C and
                  Part D fraud handbook for sponsoring organizations about detecting and
                  preventing fraud, to be available in fall 2012. CMS further stated that it
                  has added more detailed regulatory requirements for the seven compliance
                  program elements, effective January 1, 2011, including a specific
                  requirement that MA organizations have an “effective” compliance
                  program.
                  CMS concurred in part with our fourth recommendation, that it require
                  MA organizations to report aggregate data related to their Part C and
                  Part D antifraud, waste, and abuse activities. CMS stated that compliance
                  program audit results may provide an indication of MA organizations’
                  overall performance and allow CMS to target guidance and education.
                  CMS also stated that it will explore the option of placing an additional
                  burden on MA organizations by requiring them to report aggregate data on
                  their antifraud activities.
                  While CMS’s current audit approach is made up of assessments of the
                  performance of individual MA organizations, we continue to recommend
                  that CMS adopt a broader approach to review MA organizations’ antifraud
                  efforts. To assess the MA program as a whole, CMS must collect,
                  examine, and compare data from all MA organizations on fraud and abuse
                  incidents, inquiries, corrective actions, and referrals. Requiring all MA
                  organizations to report data on their antifraud activities would enable CMS
                  to explore the data in detail to identify potentially aberrant organizations
                  and thereby enhance its ability to target audits and evaluate the
                  effectiveness of antifraud activities across the entire MA program.
                  CMS concurred with our fifth recommendation, to ensure that all MA
                  organizations respond appropriately to potential fraud and abuse. CMS
                  stated that, in addition to publishing the updated manual chapter, it will
                  consider developing outreach and education based on lessons it has
                  learned from completed audits to improve organizations’ performance in
                  responding to potential fraud and abuse incidents.
                  CMS concurred in part with our sixth recommendation, to require MA
                  organizations to refer potential fraud and abuse incidents that warrant
                  further investigation to CMS or other entities. CMS stated that it does not
                  have the regulatory authority to require MA organizations to self-report
                  fraud and abuse incidents. However, CMS noted that it will explore this
                  option and continue to encourage MA organizations through guidance and
                  education to voluntarily self-report fraud and abuse incidents.


OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse   17
                  OIG acknowledges that current regulations do not require MA
                  organizations to self-report potential fraud and abuse incidents. However,
                  CMS has the authority to amend the regulations to require that MA
                  organizations report potential fraud and abuse incidents that warrant
                  further investigation to appropriate entities. We also note that CMS stated
                  in the preamble to a December 5, 2007, Final Rule that “although we have
                  decided not to finalize the mandatory self-reporting provisions that we
                  proposed, CMS remains committed to adopting a mandatory self-reporting
                  requirement.”
                  The full text of CMS’s comments is provided in Appendix F.




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse   18
         APPENDIX A
         Potential Fraud and Abuse Incidents, Inquiries, Corrective Actions, and Referrals for
         All Medicare Advantage Organizations in 2009
         Table A-1: Potential Fraud and Abuse Incidents and Inquiries Reported by
         Medicare Advantage Organizations in 2009
                                   Top Three MA Organizations                              Remaining MA Organizations

                                Potential                                              Potential
                              Fraud and         Number of                            Fraud and          Number of
                                                                     Ratio of                                                 Ratio of
                                  Abuse           Inquiries                              Abuse           Inquiries
                                                                 Inquiries to                                             Inquiries to
                               Incidents        Conducted                             Incidents       Conducted in
                                                                   Incidents                                                Incidents
                            Identified in           in 2009                        Identified in             2009
                                    2009                                                   2009
          Part C               1,210,344          1,010,234               83%             61,188              24,928                41%

          Part D                 147,840            145,830               99%             12,311                7,277               59%

              Total            1,358,184          1,156,064               85%             73,499              32,205                44%
         Source: Office of Inspector General (OIG) analysis of Medicare Advantage (MA) organizations’ survey responses.

         Table A-2: Potential Fraud and Abuse Incidents and Corrective Actions Reported
         by MA Organizations in 2009
                                   Top Three MA Organizations                              Remaining MA Organizations

                                Potential                                              Potential
                                                Number of                                                 Number of
                              Fraud and                              Ratio of        Fraud and                                Ratio of
                                                Corrective                                                Corrective
                                  Abuse                           Corrective             Abuse                             Corrective
                                                    Actions                                                   Actions
                               Incidents                          Actions to          Incidents                            Actions to
                                                Initiated in                                              Initiated in
                            Identified in                          Incidents       Identified in                            Incidents
                                                       2009                                                      2009
                                    2009                                                   2009
          Part C               1,210,344          1,010,235               83%             61,188              15,248                25%

          Part D                 147,840            103,769               70%             12,311                4,811               39%

              Total            1,358,184          1,114,004               82%             73,499              20,059                27%
         Source: OIG analysis of MA organizations’ survey responses.

         Table A-3: Potential Fraud and Abuse Incidents and Referrals to Other Entities
         Reported by MA Organizations in 2009
                                   Top Three MA Organizations                              Remaining MA Organizations

                                Potential                                              Potential
                              Fraud and                               Ratio of       Fraud and                                   Ratio of
                                               Number of                                                Number of
                                  Abuse                             Referrals            Abuse                                 Referrals
                                                Referrals                                            Referrals Sent
                               Incidents                              Sent to         Incidents                                  Sent to
                                              Sent in 2009                                                  in 2009
                            Identified in                           Incidents      Identified in                               Incidents
                                    2009                                                   2009
          Part C               1,210,344                  39            <.01%             61,188                1,689                3%

          Part D                 147,840                   1            <.01%             12,311                  927                8%

              Total            1,358,184                  40            <.01%             73,499                2,616                4%
         Source: OIG analysis of MA organizations’ survey responses.




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse                             19
APPENDIX B
Fraud and Abuse Activities by MA Organization for 2009
This table provides the numbers of potential fraud and abuse incidents identified, inquiries
conducted, corrective actions initiated, and incidents referred for each of the 170 Medicare
Advantage (MA) organizations in our review. The data are sorted by the total number of
incidents each MA organization identified.

Table B-1: Fraud and Abuse Activities by MA Organization for 2009
                                               Total Number
                                                 of Potential                     Total Number        Total Number
 MA                                                              Total Number
                   Enrollment                     Fraud and                       of Corrective        of Incidents
 Organization                                                      of Inquiries
                    Category                          Abuse                              Actions        Referred to
 Identifier                                                        Conducted
                                                   Incidents                            Initiated    Other Entities1
                                                   Identified
                                     Part C        1,010,233         1,010,233        1,010,233                    38
 178                Over 250,000     Part D          100,909           100,909          100,907                     1

                                    Subtotal       1,111,142         1,111,142        1,111,140                    39
                                     Part C          200,111                 1                 2                    1
 34              20,000 to 49,999    Part D            2,377               377               128                    0

                                    Subtotal         202,488               378               130                    1
                                     Part C                0                 *                 *                    *
 112              5,000 to 19,999    Part D           44,554            44,544             2,734                    0

                                    Subtotal          44,554            44,544             2,734                    0
                                     Part C           14,558                 0             7,047                    0
 74              20,000 to 49,999    Part D              866               866               890                    0

                                    Subtotal          15,424               866             7,937                    0
                                     Part C           10,675                 2                  2                   0
 36              20,000 to 49,999    Part D            1,837                 0                  0                   0

                                    Subtotal          12,512                 2                  2                   0
                                     Part C            7,478             7,381             1,898                   91
 174                Over 250,000     Part D              712               631               102                   45

                                    Subtotal           8,190             8,012             2,000                  136
                                     Part C            7,787                11                  6                   1
 57                1,000 to 4,999    Part D              154                 0                  0                   0

                                    Subtotal           7,941                11                  6                   1
                                     Part C            5,123             5,123                  0                   0
 14               5,000 to 19,999    Part D               25                25                  0                   1

                                    Subtotal           5,148             5,148                  0                   1

                                                                                                continued on next page




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse         20
Table B-1: Fraud and Abuse Activities by MA Organization for 2009 (Continued)
                                                Total Number
                                                  of Potential                    Total Number        Total Number
 MA                                                              Total Number
                    Enrollment                     Fraud and                      of Corrective        of Incidents
 Organization                                                      of Inquiries
                     Category                          Abuse                             Actions        Referred to
 Identifier                                                        Conducted
                                                    Incidents                           Initiated    Other Entities1
                                                    Identified

                                      Part C            3,053              669               669                    0
 58                 1,000 to 4,999    Part D               26               26                  26                  0
                                     Subtotal           3,079              695               695                    0
                                      Part C            2,251            2,251             1,236                  432
 169                 Over 250,000     Part D              303              303               131                  266
                                     Subtotal           2,554            2,554             1,367                  698
                                      Part C            2,154            2,154               794                   20
 33                  Over 250,000     Part D               51               51                  44                  6
                                     Subtotal           2,205            2,205               838                   26
                                      Part C                9                9                  14                  1
 143               5,000 to 19,999    Part D            2,040            2,040             2,043                    1
                                     Subtotal           2,049            2,049             2,057                    2
                                      Part C               42               32                  20                  1
 61                5,000 to 19,999    Part D            1,532              101               101                    0
                                     Subtotal           1,574              133               121                    1
                                      Part C            1,360            1,339                  49                  1
 62              50,000 to 250,000    Part D               75               75                  0                   0
                                     Subtotal           1,435            1,414                  49                  1
                                      Part C              843              843               843                    0
 24                5,000 to 19,999    Part D                1                1                  0                   0
                                     Subtotal             844              844               843                    0
                                      Part C              123              123               102                    0
 98               20,000 to 49,999    Part D              714              714               247                    0
                                     Subtotal             837              837               349                    0
                                      Part C               13               13                  3                   7
 70                5,000 to 19,999    Part D              799                0                  88                  0
                                     Subtotal             812               13                  91                  7
                                      Part C              508              508                  10                  1
 7                20,000 to 49,999    Part D              226                0                  0                   0
                                     Subtotal             734              508                  10                  1
                                      Part C              438              438                  80                  4
 119             50,000 to 250,000    Part D              289              289                  13                  2
                                     Subtotal             727              727                  93                  6
                                      Part C              438              438                  11                  0
 87                  Over 250,000     Part D               98               98                  0                  17
                                     Subtotal             536              536                  11                 17

                                                                                                continued on next page




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse         21
Table B-1: Fraud and Abuse Activities by MA Organization for 2009 (Continued)
                                                Total Number
                                                  of Potential                     Total Number        Total Number
 MA                                                              Total Number
                   Enrollment                      Fraud and                       of Corrective        of Incidents
 Organization                                                      of Inquiries
                    Category                           Abuse                              Actions        Referred to
 Identifier                                                        Conducted
                                                    Incidents                            Initiated    Other Entities1
                                                    Identified

                                      Part C                1                1                  0                    0
 81                5,000 to 19,999    Part D              374              374                305                    0
                                     Subtotal             375              375                305                    0
                                      Part C              310              310                127                   78
 176            50,000 to 250,000     Part D               54               54                  30                  14
                                     Subtotal             364              364                157                   92
                                      Part C              263              263                  86                   0
 95             50,000 to 250,000     Part D               66               66                  1                   22
                                     Subtotal             329              329                  87                  22
                                      Part C              291              291                267                    1
 76                  Over 250,000     Part D               35               35                  28                   3
                                     Subtotal             326              326                295                    4
                                      Part C              270              136                  5                   50
 148            50,000 to 250,000     Part D                1                1                  0                    1
                                     Subtotal             271              137                  5                   51
                                      Part C              213              213                111                    5
 16             50,000 to 250,000     Part D               49              159                  49                   3
                                     Subtotal             262              372                160                    8
                                      Part C              186              179                179                  119
 20               20,000 to 49,999    Part D               21               21                  26                  18
                                     Subtotal             207              200                205                  137
                                      Part C               69               69                  15                   0
 21                 1,000 to 4,999    Part D              104              104                  25                   0
                                     Subtotal             173              173                  40                   0
                                      Part C                8               20                  18                   1
 72                 1,000 to 4,999    Part D              163              163                  26                   0
                                     Subtotal             171              183                  44                   1
                                      Part C               16               16                  1                    0
 25                5,000 to 19,999    Part D              153                0                  0                    0
                                     Subtotal             169               16                  1                    0
                                      Part C               87               87                  71                   3
 47             50,000 to 250,000     Part D               79               79                  22                   3
                                     Subtotal             166              166                  93                   6
                                      Part C              140              123                  3                    0
 40                 1,000 to 4,999    Part D               24                0                  0                    0
                                     Subtotal             164              123                  3                    0

                                                                                                 continued on next page




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse         22
Table B-1: Fraud and Abuse Activities by MA Organization for 2009 (Continued)
                                                Total Number
                                                  of Potential                     Total Number        Total Number
 MA                                                              Total Number
                   Enrollment                      Fraud and                       of Corrective        of Incidents
 Organization                                                      of Inquiries
                    Category                           Abuse                              Actions        Referred to
 Identifier                                                        Conducted
                                                    Incidents                            Initiated    Other Entities1
                                                    Identified

                                      Part C              155               74                  29                  20
 173               5,000 to 19,999    Part D                0                 *                  *                    *
                                     Subtotal             155               74                  29                  20
                                      Part C              143              166                  76                   7
 51             50,000 to 250,000     Part D                1                1                  0                    0
                                     Subtotal             144              167                  76                   7
                                      Part C               29               15                  0                    7
 78             50,000 to 250,000     Part D              107               39                  0                   22
                                     Subtotal             136               54                  0                   29
                                      Part C              121                6                  2                    1
 123               5,000 to 19,999    Part D                9                0                  9                    0
                                     Subtotal             130                6                  11                   1
                                      Part C              124              109                  23                   1
 144                1,000 to 4,999    Part D                2                2                  2                    0
                                     Subtotal             126              111                  25                   1
                                      Part C                1                1                  1                    0
 29             50,000 to 250,000     Part D              124              124                  2                   98
                                     Subtotal             125              125                  3                   98
                                      Part C                2                2                  0                    1
 137                1,000 to 4,999    Part D              116               35                  3                    0
                                     Subtotal             118               37                  3                    1
                                      Part C               76               68                  77                  41
 38                  Over 250,000     Part D               41               33                  62                  10
                                     Subtotal             117              101                139                   51
                                      Part C               34               34                  29                   5
 52             50,000 to 250,000     Part D               79               81                  73                   8
                                     Subtotal             113              115                102                   13
                                      Part C               50               51                  45                  43
 179            50,000 to 250,000     Part D               58               58                  1                   32
                                     Subtotal             108              109                  46                  75
                                      Part C              106               24                  24                   5
 180               5,000 to 19,999    Part D                1                1                  1                    0
                                     Subtotal             107               25                  25                   5
                                      Part C               89               89                  68                  12
 75             50,000 to 250,000     Part D               15               15                  11                   7
                                     Subtotal             104              104                  79                  19

                                                                                                 continued on next page




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse         23
Table B-1: Fraud and Abuse Activities by MA Organization for 2009 (Continued)
                                                Total Number
                                                  of Potential                     Total Number        Total Number
 MA                                                              Total Number
                   Enrollment                      Fraud and                       of Corrective        of Incidents
 Organization                                                      of Inquiries
                    Category                           Abuse                              Actions        Referred to
 Identifier                                                        Conducted
                                                    Incidents                            Initiated    Other Entities1
                                                    Identified

                                      Part C               81               79                  98                  28
 69                  Over 250,000     Part D               22               20                  14                   2
                                     Subtotal             103               99                112                   30
                                      Part C               13               13                  10                   1
 73               20,000 to 49,999    Part D               85               85                107                    0
                                     Subtotal              98               98                117                    1
                                      Part C               82               58                  90                   7
 147            50,000 to 250,000     Part D               13                0                  0                   13
                                     Subtotal              95               58                  90                  20
                                      Part C               70               70                278                    1
 1              50,000 to 250,000     Part D               24               24                  54                   0
                                     Subtotal              94               94                332                    1
                                      Part C               88               88                  83                  72
 121            50,000 to 250,000     Part D                5                5                  4                    2
                                     Subtotal              93               93                  87                  74
                                      Part C               72               72                  9                    1
 107                1,000 to 4,999    Part D               21               21                  1                    0
                                     Subtotal              93               93                  10                   1
                                      Part C               64               55                  49                  13
 71             50,000 to 250,000     Part D               28               28                  0                   25
                                     Subtotal              92               83                  49                  38
                                      Part C               65                6                  8                    6
 106            50,000 to 250,000     Part D               24                3                  3                    9
                                     Subtotal              89                9                  11                  15
                                      Part C               82               67                  67                   1
 120              20,000 to 49,999    Part D                5                4                  2                    1
                                     Subtotal              87               71                  69                   2
                                      Part C               66               66                  12                   0
 124               5,000 to 19,999    Part D               16               16                  3                    0
                                     Subtotal              82               82                  15                   0
                                      Part C                0                 *                  *                    *
 118               5,000 to 19,999    Part D               76               76                  48                   0
                                     Subtotal              76               76                  48                   0
                                      Part C               74               74                  74                  72
 122                1,000 to 4,999    Part D                1                1                  0                    0
                                     Subtotal              75               75                  74                  72

                                                                                                 continued on next page




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse         24
Table B-1: Fraud and Abuse Activities by MA Organization for 2009 (Continued)
                                                Total Number
                                                  of Potential                     Total Number        Total Number
 MA                                                              Total Number
                   Enrollment                      Fraud and                       of Corrective        of Incidents
 Organization                                                      of Inquiries
                    Category                           Abuse                              Actions        Referred to
 Identifier                                                        Conducted
                                                    Incidents                            Initiated    Other Entities1
                                                    Identified

                                      Part C                7                7                  20                   7
 64               20,000 to 49,999    Part D               60               60                  20                   0
                                     Subtotal              67               67                  40                   7
                                      Part C               51               49                  53                   1
 108               5,000 to 19,999    Part D               13                7                  7                    3
                                     Subtotal              64               56                  60                   4
                                      Part C                7                0                  1                    0
 86             50,000 to 250,000     Part D               57                0                  0                    1
                                     Subtotal              64                0                  1                    1
                                      Part C                0                 *                  *                    *
 9                 5,000 to 19,999    Part D               56               18                  18                   0
                                     Subtotal              56               18                  18                   0
                                      Part C               37               23                  22                   0
 53             50,000 to 250,000     Part D               18               18                  2                    0
                                     Subtotal              55               41                  24                   0
                                      Part C               51                0                  0                    0
 19                5,000 to 19,999    Part D                0                 *                  *                    *
                                     Subtotal              51                0                  0                    0
                                      Part C                0                 *                  *                    *
 89              Fewer than 1,000     Part D               48                0                  0                    0
                                     Subtotal              48                0                  0                    0
                                      Part C               37               37                  2                    1
 31                  Over 250,000     Part D                8                8                  16                   4
                                     Subtotal              45               45                  18                   5
                                      Part C               36               36                  13                   0
 41                5,000 to 19,999    Part D                9                9                  1                    4
                                     Subtotal              45               45                  14                   4
                                      Part C                0                 *                  *                    *
 42              Fewer than 1,000     Part D               40               40                  0                    0
                                     Subtotal              40               40                  0                    0
                                      Part C               31               31                  3                   18
 90               20,000 to 49,999    Part D                8                8                  0                    6
                                     Subtotal              39               39                  3                   24
                                      Part C               29               31                  3                    4
 11               20,000 to 49,999    Part D                9               13                  1                    1
                                     Subtotal              38               44                  4                    5

                                                                                                 continued on next page




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse         25
Table B-1: Fraud and Abuse Activities by MA Organization for 2009 (Continued)
                                                Total Number
                                                  of Potential                     Total Number        Total Number
 MA                                                              Total Number
                   Enrollment                      Fraud and                       of Corrective        of Incidents
 Organization                                                      of Inquiries
                    Category                           Abuse                              Actions        Referred to
 Identifier                                                        Conducted
                                                    Incidents                            Initiated    Other Entities1
                                                    Identified

                                      Part C                1                1                  0                    0
 162               5,000 to 19,999    Part D               37               11                  36                  11
                                     Subtotal              38               12                  36                  11
                                      Part C               36                6                  13                   0
 167               5,000 to 19,999    Part D              NA2                 *                  *                    *
                                     Subtotal              36                6                  13                   0
                                      Part C               32               27                  48                   0
 102              20,000 to 49,999    Part D                3                2                  4                    0
                                     Subtotal              35               29                  52                   0
                                      Part C               13               13                  13                   5
 12             50,000 to 250,000     Part D               19               19                  19                   4
                                     Subtotal              32               32                  32                   9
                                      Part C               14                8                  12                   1
 117              20,000 to 49,999    Part D               18               18                  10                   6
                                     Subtotal              32               26                  22                   7
                                      Part C               22               22                  22                   0
 5              50,000 to 250,000     Part D                7                7                  7                    7
                                     Subtotal              29               29                  29                   7
                                      Part C               22               22                  15                   1
 132               5,000 to 19,999    Part D                7                7                  1                    0
                                     Subtotal              29               29                  16                   1
                                      Part C               22               22                   5                   1
 22               20,000 to 49,999    Part D                2                2                  2                    2
                                     Subtotal              24               24                  7                    3
                                      Part C                7                7                  0                    0
 136                1,000 to 4,999    Part D               15                0                  0                    0
                                     Subtotal              22                7                  0                    0
                                      Part C                0                 *                  *                    *
 146                1,000 to 4,999    Part D               22                0                  0                    0
                                     Subtotal              22                0                  0                    0
                                      Part C               20               20                  2                    0
 157                1,000 to 4,999    Part D                1                1                  0                    0
                                     Subtotal              21               21                  2                    0
                                      Part C               18                3                  3                    1
 100              20,000 to 49,999    Part D                3                0                  0                    0
                                     Subtotal              21                3                  3                    1

                                                                                                 continued on next page




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse         26
Table B-1: Fraud and Abuse Activities by MA Organization for 2009 (Continued)
                                               Total Number
                                                 of Potential                     Total Number         Total Number
MA                                                              Total Number
                  Enrollment                      Fraud and                       of Corrective         of Incidents
Organization                                                      of Inquiries
                   Category                           Abuse                              Actions         Referred to
Identifier                                                        Conducted
                                                   Incidents                            Initiated     Other Entities1
                                                   Identified

                                     Part C               18               22                   22                  17
168              20,000 to 49,999    Part D                2                4                    4                   2
                                    Subtotal              20               26                   26                  19
                                     Part C               18               18                   28                   3
116              20,000 to 49,999    Part D                2                2                    1                   2
                                    Subtotal              20               20                   29                   5
                                     Part C               11               11                   11                   1
88             50,000 to 250,000     Part D                8                8                    1                   7
                                    Subtotal              19               19                   12                   8
                                     Part C               16               16                    4                   0
160              20,000 to 49,999    Part D                2                2                    0                   0
                                    Subtotal              18               18                    4                   0
                                     Part C                2                2                   0                    0
93                 1,000 to 4,999    Part D               16                0                   16                   0
                                    Subtotal              18                2                   16                   0
                                     Part C               14               14                   10                   0
92                 1,000 to 4,999    Part D                1                1                   0                    0
                                    Subtotal              15               15                   10                   0
                                     Part C               12               12                   6                    7
154             Fewer than 1,000     Part D                3                3                   2                    2
                                    Subtotal              15               15                   8                    9
                                     Part C               14               14                   2                    0
164               5,000 to 19,999    Part D                1                1                    0                   0
                                    Subtotal              15               15                    2                   0
                                     Part C               12               12                    5                   2
111               5,000 to 19,999    Part D                2                2                    4                   2
                                    Subtotal              14               14                    9                   4
                                     Part C               14               14                    7                   4
115              20,000 to 49,999    Part D                0                 *                   *                    *
                                    Subtotal              14               14                    7                   4
                                     Part C               12                7                    2                   0
6                 5,000 to 19,999    Part D                1                1                    1                   0
                                    Subtotal              13                8                    3                   0
                                     Part C               12                0                    0                   0
126            50,000 to 250,000     Part D                0                 *                   *                    *
                                    Subtotal              12                0                    0                   0

                                                                                                 continued on next page




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse         27
Table B-1: Fraud and Abuse Activities by MA Organization for 2009 (Continued)
                                               Total Number
                                                 of Potential                     Total Number         Total Number
 MA                                                             Total Number
                  Enrollment                      Fraud and                       of Corrective         of Incidents
 Organization                                                     of Inquiries
                   Category                           Abuse                              Actions         Referred to
 Identifier                                                       Conducted
                                                   Incidents                            Initiated     Other Entities1
                                                   Identified

                                     Part C               12                0                   0                    0
                                                            3
 67               5,000 to 19,999    Part D     Unavailable                  *                   *                    *
                                    Subtotal              12                0                   0                    0
                                     Part C                1                1                   0                    1
 37                1,000 to 4,999    Part D                9                9                   0                    0
                                    Subtotal              10               10                   0                    1
                                     Part C                5                5                   0                    0
 113               1,000 to 4,999    Part D                5                5                   0                    0
                                    Subtotal              10               10                   0                    0
                                     Part C               10                0                   0                    0
 48               5,000 to 19,999    Part D                0                 *                   *                    *
                                    Subtotal              10                0                   0                    0
                                     Part C                2                2                   0                    0
 170               1,000 to 4,999    Part D                7                7                   6                    0
                                    Subtotal               9                9                   6                    0
                                     Part C                7                7                   7                    1
 138            20,000 to 49,999     Part D                1                1                   1                    1
                                    Subtotal               8                8                   8                    2
                                     Part C                3                3                   0                    3
 140              5,000 to 19,999    Part D                5                5                   0                    4
                                    Subtotal               8                8                   0                    7
                                     Part C                7                0                   0                    7
 46               5,000 to 19,999    Part D                1                1                   2                    1
                                    Subtotal               8                1                   2                    8
                                     Part C                7                0                   0                    0
 129            20,000 to 49,999     Part D                1                1                   0                    1
                                    Subtotal               8                1                   0                    1
                                     Part C                4                0                   0                    0
 171               1,000 to 4,999    Part D                4                0                   0                    0
                                    Subtotal               8                0                   0                    0
                                     Part C                8                0                   0                    0
                      Fewer than
 18                                  Part D                0                 *                   *                    *
                          1,000
                                    Subtotal               8                0                   0                    0
                                     Part C                3                3                   4                    3
 159            20,000 to 49,999     Part D                4                4                   11                   0
                                    Subtotal               7                7                   15                   3

                                                                                                 continued on next page




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse         28
Table B-1: Fraud and Abuse Activities by MA Organization for 2009 (Continued)
                                               Total Number
                                                 of Potential                     Total Number         Total Number
 MA                                                             Total Number
                  Enrollment                      Fraud and                       of Corrective         of Incidents
 Organization                                                     of Inquiries
                   Category                           Abuse                              Actions         Referred to
 Identifier                                                       Conducted
                                                   Incidents                            Initiated     Other Entities1
                                                   Identified

                                     Part C                7                7                   12                   0
 2                5,000 to 19,999    Part D                0                 *                   *                    *
                                    Subtotal               7                7                   12                   0
                                     Part C                5                0                    0                   1
 130            20,000 to 49,999     Part D                2                0                   0                    0
                                    Subtotal               7                0                   0                    1
                                     Part C                2                2                    1                   0
 96             20,000 to 49,999     Part D                4                4                   4                    4
                                    Subtotal               6                6                   5                    4
                                     Part C                6                6                   3                    0
 35                1,000 to 4,999    Part D                0                 *                   *                    *
                                    Subtotal               6                6                   3                    0
                                     Part C                4                3                   3                    3
 135               1,000 to 4,999    Part D                2                2                   2                    1
                                    Subtotal               6                5                   5                    4
                                     Part C                0                 *                   *                    *
 45             20,000 to 49,999     Part D                5                5                   10                   5
                                    Subtotal               5                5                   10                   5
                                     Part C                5                5                   5                    1
 101               1,000 to 4,999    Part D                0                 *                   *                    *
                                    Subtotal               5                5                   5                    1
                                     Part C                5                5                   5                    0
 99                1,000 to 4,999    Part D                0                 *                   *                    *
                                    Subtotal               5                5                   5                    0
                                     Part C                4                3                   3                    1
 172               1,000 to 4,999    Part D                1                1                   0                    1
                                    Subtotal               5                4                   3                    2
                                     Part C                2                1                    1                   2
 141            20,000 to 49,999     Part D                3                3                   1                    3
                                    Subtotal               5                4                   2                    5
                                     Part C                4                4                   3                    2
                      Fewer than
 97                                  Part D                0                 *                   *                    *
                          1,000
                                    Subtotal               4                4                   3                    2
                                     Part C                3                3                    1                   2
                      Fewer than
 49                                  Part D                1                1                   1                    1
                          1,000
                                    Subtotal               4                4                   2                    3

                                                                                                 continued on next page




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse         29
Table B-1: Fraud and Abuse Activities by MA Organization for 2009 (Continued)
                                                Total Number
                                                  of Potential                     Total Number        Total Number
 MA                                                              Total Number
                   Enrollment                      Fraud and                       of Corrective        of Incidents
 Organization                                                      of Inquiries
                    Category                           Abuse                              Actions        Referred to
 Identifier                                                        Conducted
                                                    Incidents                            Initiated    Other Entities1
                                                    Identified

                                      Part C                4                4                   2                   0
 103                1,000 to 4,999    Part D                0                 *                  *                    *
                                     Subtotal               4                4                  2                    0
                                      Part C                4                3                  10                   3
 23                 1,000 to 4,999    Part D                0                 *                  *                    *
                                     Subtotal               4                3                  10                   3
                                      Part C                3                6                  0                    0
 150                1,000 to 4,999    Part D                0                 *                  *                    *
                                     Subtotal               3                6                  0                    0
                                      Part C                3                3                   3                   0
 66               20,000 to 49,999    Part D                0                 *                  *                    *
                                     Subtotal               3                3                  3                    0
                                      Part C                1                1                  0                    1
 104               5,000 to 19,999    Part D                2                2                  0                    2
                                     Subtotal               3                3                  0                    3
                                      Part C                2                2                  0                    0
 156               5,000 to 19,999    Part D                1                1                  0                    0
                                     Subtotal               3                3                  0                    0
                                      Part C                0                 *                  *                    *
 56                 1,000 to 4,999    Part D                3                2                  2                    1
                                     Subtotal               3                2                  2                    1
                                      Part C                0                 *                  *                    *
 79              Fewer than 1,000     Part D                3                0                  0                    0
                                     Subtotal               3                0                  0                    0
                                      Part C                2                2                  2                    0
 50                 1,000 to 4,999    Part D                0                 *                  *                    *
                                     Subtotal               2                2                  2                    0
                                      Part C                2                2                  2                    0
 131                1,000 to 4,999    Part D                0                 *                  *                    *
                                     Subtotal               2                2                  2                    0
                                      Part C                2                2                  1                    0
 158               5,000 to 19,999    Part D                0                 *                  *                    *
                                     Subtotal               2                2                  1                    0
                                      Part C     Unavailable4                 *                  *                    *
 83             50,000 to 250,000     Part D                2                2                  0                    0
                                     Subtotal               2                2                  0                    0

                                                                                                 continued on next page




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse         30
Table B-1: Fraud and Abuse Activities by MA Organization for 2009 (Continued)
                                               Total Number
                                                 of Potential                     Total Number        Total Number
 MA                                                             Total Number
                  Enrollment                      Fraud and                       of Corrective        of Incidents
 Organization                                                     of Inquiries
                   Category                           Abuse                              Actions        Referred to
 Identifier                                                       Conducted
                                                   Incidents                            Initiated    Other Entities1
                                                   Identified

                                     Part C                1                1                   1                   0
 127               1,000 to 4,999    Part D                1                0                   0                   1
                                    Subtotal               2                1                   1                   1
                                     Part C                1                1                   5                   0
 30               5,000 to 19,999    Part D                0                 *                  *                    *
                                    Subtotal               1                1                   5                   0
                                     Part C                1                1                   5                   0
 177              5,000 to 19,999    Part D                0                 *                  *                    *
                                    Subtotal               1                1                   5                   0
                                     Part C                1                1                   2                   1
 125            20,000 to 49,999     Part D                0                 *                  *                    *
                                    Subtotal               1                1                   2                   1
                                     Part C                0                 *                  *                    *
 114               1,000 to 4,999    Part D                1                1                   1                   1
                                    Subtotal               1                1                   1                   1
                                     Part C                1                1                   1                   0
 165              5,000 to 19,999    Part D                0                 *                  *                    *
                                    Subtotal               1                1                   1                   0
                                     Part C                1                1                   0                   1
 94               5,000 to 19,999    Part D                0                 *                  *                    *
                                    Subtotal               1                1                   0                   1
                                     Part C                1                1                   0                   0
 152              5,000 to 19,999    Part D                0                 *                  *                    *
                                    Subtotal               1                1                   0                   0
                                     Part C                0                 *                  *                    *
 28                1,000 to 4,999    Part D                1                0                   0                   0
                                    Subtotal               1                0                   0                   0
                                     Part C                0                 *                  *                    *
 17             20,000 to 49,999     Part D                0                 *                  *                    *
                                    Subtotal               0                 *                  *                    *
                                     Part C                0                 *                  *                    *
 134            20,000 to 49,999     Part D                0                 *                  *                    *
                                    Subtotal               0                 *                  *                    *
                                     Part C                0                 *                  *                    *
 8                5,000 to 19,999    Part D                0                 *                  *                    *
                                    Subtotal               0                 *                  *                    *

                                                                                                continued on next page




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse        31
Table B-1: Fraud and Abuse Activities by MA Organization for 2009 (Continued)
                                               Total Number
                                                 of Potential                        Total Number       Total Number
 MA                                                             Total Number
                  Enrollment                      Fraud and                          of Corrective       of Incidents
 Organization                                                     of Inquiries
                   Category                           Abuse                                 Actions       Referred to
 Identifier                                                       Conducted
                                                   Incidents                               Initiated   Other Entities1
                                                   Identified

                                     Part C                0                 *                     *                   *
                                     Part D                0                 *                     *                   *
 10               5,000 to 19,999
                                    Subtotal               0                 *                                         *
                                                                                 *
                                     Part C                0                 *                     *                   *
 15               5,000 to 19,999    Part D                0                 *                     *                   *
                                    Subtotal               0                 *                     *                   *
                                     Part C                0                 *                     *                   *
 39               5,000 to 19,999    Part D                0                 *                     *                   *
                                    Subtotal               0                 *                     *                   *
                                     Part C                0                 *                     *                   *
 85               5,000 to 19,999    Part D                0                 *                     *                   *
                                    Subtotal               0                 *                     *                   *
                                     Part C                0                 *                     *                   *
 109              5,000 to 19,999    Part D                0                 *                     *                   *
                                    Subtotal               0                 *                     *                   *
                                     Part C                0                 *                     *                   *
 110              5,000 to 19,999    Part D                0                 *                     *                   *
                                    Subtotal               0                 *                     *                   *
                                     Part C                0                 *                     *                   *
 142              5,000 to 19,999    Part D                0                 *                     *                   *
                                    Subtotal               0                 *                     *                   *
                                     Part C                0                 *                     *                   *
 151              5,000 to 19,999    Part D                0                 *                     *                   *
                                    Subtotal               0                 *                     *                   *
                                     Part C                0                 *                     *                   *
 4                 1,000 to 4,999    Part D                0                 *                     *                   *
                                    Subtotal               0                 *                     *                   *
                                     Part C                0                 *                     *                   *
 26                1,000 to 4,999    Part D                0                 *                     *                   *
                                    Subtotal               0                 *                     *                   *
                                     Part C                0                 *                     *                   *
 59                1,000 to 4,999    Part D                0                 *                     *                   *
                                    Subtotal               0                 *                     *                   *
                                     Part C                0                 *                     *                   *
 60                1,000 to 4,999    Part D                0                 *                     *                   *
                                    Subtotal               0                 *                     *                   *

                                                                                                  continued on next page




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse          32
Table B-1: Fraud and Abuse Activities by MA Organization for 2009 (Continued)
                                               Total Number
                                                 of Potential                     Total Number        Total Number
 MA                                                             Total Number
                  Enrollment                      Fraud and                       of Corrective        of Incidents
 Organization                                                     of Inquiries
                   Category                           Abuse                              Actions        Referred to
 Identifier                                                       Conducted
                                                   Incidents                            Initiated    Other Entities1
                                                   Identified

                                     Part C                0                 *                  *                    *
 77                1,000 to 4,999    Part D                0                 *                  *                    *
                                    Subtotal               0                 *                  *                    *
                                     Part C                0                 *                  *                    *
 91                1,000 to 4,999    Part D                0                 *                  *                    *
                                    Subtotal               0                 *                  *                    *
                                     Part C                0                 *                  *                    *
 105               1,000 to 4,999    Part D                0                 *                  *                    *
                                    Subtotal               0                 *                  *                    *
                                     Part C                0                 *                  *                    *
 128               1,000 to 4,999    Part D                0                 *                  *                    *
                                    Subtotal               0                 *                  *                    *
                                     Part C                0                 *                  *                    *
 145               1,000 to 4,999    Part D                0                 *                  *                    *
                                    Subtotal               0                 *                  *                    *
                                     Part C                0                 *                  *                    *
 153               1,000 to 4,999    Part D                0                 *                  *                    *
                                    Subtotal               0                 *                  *                    *
                                     Part C                0                 *                  *                    *
 161               1,000 to 4,999    Part D                0                 *                  *                    *
                                    Subtotal               0                 *                  *                    *
                                     Part C                0                 *                  *                    *
 163               1,000 to 4,999    Part D                0                 *                  *                    *
                                    Subtotal               0                 *                  *                    *
                                     Part C                0                 *                  *                    *
 166               1,000 to 4,999    Part D                0                 *                  *                    *
                                    Subtotal               0                 *                  *                    *
                                     Part C                0                 *                  *                    *
                      Fewer than
 13                                  Part D                0                 *                  *                    *
                          1,000
                                    Subtotal               0                 *                  *                    *
                                     Part C                0                 *                  *                    *
                      Fewer than
 27                                  Part D                0                 *                  *                    *
                          1,000
                                    Subtotal               0                 *                  *                    *
                                     Part C                0                 *                  *                    *
                      Fewer than
 32                                  Part D                0                 *                  *                    *
                          1,000
                                    Subtotal               0                 *                  *                    *

                                                                                                continued on next page




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse        33
Table B-1: Fraud and Abuse Activities by MA Organization for 2009 (Continued)
                                                                   Total Number
                                                                                                                                 Total Number
                                                                     of Potential                            Total Number
 MA                                                                                     Total Number                              of Incidents
                        Enrollment                                    Fraud and                              of Corrective
 Organization                                                                             of Inquiries                             Referred to
                         Category                                         Abuse                                     Actions
 Identifier                                                                               Conducted                                      Other
                                                                       Incidents                                   Initiated
                                                                                                                                      Entities1
                                                                       Identified

                                                       Part C                     0                    *                    *                      *
 55                  Fewer than 1,000                  Part D                     0                    *                    *                      *
                                                     Subtotal                     0                    *                    *                      *
                                                       Part C                     0                    *                    *                      *
 68                  Fewer than 1,000                  Part D                     0                    *                    *                      *
                                                     Subtotal                     0                    *                    *                      *
                                                       Part C                     0                    *                    *                      *
 82                  Fewer than 1,000                  Part D                     0                    *                    *                      *
                                                     Subtotal                     0                    *                    *                      *
                                                       Part C                     0                    *                    *                      *
 133                 Fewer than 1,000                  Part D                     0                    *                    *                      *
                                                     Subtotal                     0                    *                    *                      *
                                                       Part C                     0                    *                    *                      *
 139                 Fewer than 1,000                  Part D                     0                    *                    *                      *
                                                     Subtotal                     0                    *                    *                      *
                                                       Part C                     0                    *                    *                      *
 155                 Fewer than 1,000                  Part D                     0                    *                    *                      *
                                                     Subtotal                     0                    *                    *                      *

                                                Part C Total            1,271,532            1,035,162            1,025,483                 1,307

                                                Part D Total              160,151              153,107              108,580                   723

                                                Grand Total             1,431,683            1,188,269            1,134,063                 2,030
Source: Office of Inspector General analysis of MA organizations’ survey responses and Centers for Medicare & Medicaid Services enrollment
data.
*These MA organizations did not identify any potential fraud and abuse incidents in 2009.
1
  This column represents the number of incidents referred to other entities, not the number of referrals. One potential fraud and abuse incident
may be referred to multiple entities for further investigation.
2
  MA organization 167 did not operate any Medicare Advantage Prescription Drug plans in 2009.
3
  MA organization 67 could not provide information about potential Part D fraud and abuse incidents separate from incidents related to its other
lines of business.
4
  MA organization 83 could not provide information about potential Part C fraud and abuse incidents separate from incidents related to its other
lines of business.




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse                                    34
APPENDIX C
Types of Potential Part C and Part D Fraud and Abuse Identified by Medicare Advantage
Organizations in 2009
The examples cited in Tables C-1 and C-2 were derived from Chapter 9 of the Centers for
Medicare & Medicaid Services’ (CMS) Prescription Drug Benefit Manual; CMS’s Guidelines for
Addressing Fraud and Abuse in Medicaid Managed Care, issued October 2000; and Medicare
Advantage (MA) organizations’ responses to our survey.

Table C-1: Types of Potential Part C Fraud and Abuse Identified by MA Organizations in 2009
 Type of Fraud and
                               Number of Incidents                                            Examples
 Abuse

                          Top Three MA    Remaining MA
                          Organizations   Organizations
                                                             •   By using the wrong billing code or separately billing for codes that
                                                                 could be included in a larger, more inclusive set of codes, the health
 Improper coding              1,145,196          39,451
                                                                 care provider is reimbursed at a higher rate than if the correct billing
                                                                 codes were used and the services were billed together.
                                                             •   Plan sponsor, first-tier entity, or downstream entity violated Medicare
 Marketing schemes                  45               8,003       marketing guidelines or other Federal or State laws, rules, and
                                                                 regulations to improperly enroll beneficiaries in an MA plan.
 Billing for ineligible                                      •   Misrepresentation of beneficiary's personal identity or eligibility
                                     0               5,521
 consumers                                                       information, medical condition, or plan enrollment information.

 Services never                                              •   Provider submits claims or encounter data for services that were
                                     0               3,522
 rendered                                                        never provided to beneficiary.
                                                             •   Plan sponsor, health care provider, or other entity fails to provide
 Failure to provide
                                                                 medically necessary items or services that it is required to provide
 medically necessary                 0               1,236
                                                                 under law or under the contract, and that failure adversely affects or is
 services
                                                                 substantially likely to affect the beneficiary.
                                                             •   The provider receives more than one payment for the same service
 Double billing or                                               and keeps the money, or bills the beneficiary directly for the total
                                65,056                963
 balance billing                                                 amount of the bill including the amount of the charge that the provider
                                                                 has agreed to write off after the MA organization has paid.
                                                             •   Questionable or suspicious billing practices.
 Suspect billing                     0                387
                                                             •   Overutilization.
 Attempts to steal                                           •   Individual or organization poses as part of Medicare or Social Security
 beneficiary                        38                338        with intent to steal beneficiary's identity or money.
 identity/money                                              •   Individual uses/steals another person's Medicare or MA card.
 Overcharging
                                     0                316    •   Overcharging beneficiary for improper coinsurance or premiums.
 beneficiary

                                                             •   Member complaints of improper provider billing.
                                                             •   Billing incorrect carrier.
                                                             •   Other insurance primary.
 Billing errors/issues               0                245    •   Billing wrong contract number.
                                                             •   Failure to disclose overpayment.
                                                             •   Charges exceed contract.
                                                             •   Entity overcharging the MA plan.
                                                                                                                     continued on next page




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse                 35
Table C-1: Types of Potential Part C Fraud and Abuse Identified by MA Organizations in 2009
(Continued)
 Type of Fraud and
                                   Number of Incidents                                       Examples
 Abuse

                               Top Three MA    Remaining MA
                               Organizations   Organizations

                                                               •   Selecting/denying beneficiaries based on illness profile or other
 Adverse selection                        2              212
                                                                   discriminatory factors.
                                                               •   This can occur either at the MA organization or downstream.
 Falsification of health                                           Falsification of provider credentials may result in improper
                                          0              210
 care provider credentials                                         payment for the services of a provider who does not meet
                                                                   required professional qualifications.
                                                               •   Law enforcement request for information.
 Request for information                  0              104
                                                               •   Request for assistance from external entity.

 Improper cost reporting or                                    •   Providers submit inflated reports of patient traffic and treatment
                                          0              102
 cost shifting                                                     costs to induce payers to increase future per-patient payments.
                                                               •   Questionable enrollment.
 Enrollment/disenrollment                                      •   Improper disenrollment or enrollment activity.
                                          5              96
 issue                                                         •   Attempted enrollment without beneficiary approval.
                                                               •   Falsified enrollment information.
 Outside scope of practice                0              70    •   Physicians provide services outside their scope of practice.

                                                               •   Member complaints of testing being ordered by physician that the
 Medical necessity or
                                          0              44        member did not feel was necessary.
 appropriateness issue
                                                               •   Provider billing for unnecessary services.
                                                               •   Inappropriate discounts, support services, educational grants, or
                                                                   research funding.
                                                               •   Improper entertainment or business courtesies.
 Inducements, kickbacks,
 bribes, or tying                         0              38    •   The MA organization may subcontract with entities that have
 agreements                                                        expertise in a particular area. If the subcontractor requires the
                                                                   MA organization to contract with other entities as a condition for
                                                                   the subcontractor to provide services, the MA organization could
                                                                   incur inflated costs.
                                                               •   Provider indicted for Medicare fraud.
 Investigations                           0               36
                                                               •   Provider under State/Federal investigation.
                                                               •   Patient seen after termination.
                                                               •   Fraudulent billing for unauthorized poststabilization inpatient
                                                                   services at several noncontracted hospitals that are part of a
                                                                   commonly owned chain.
 Unauthorized services or                                      •   Provider's license was revoked.
                                          0              33
 provider                                                      •   Provider referring lab services to a nonparticipating vendor.
                                                               •   Billing for items/tests not ordered or covered.
                                                               •   Out of geographical service area.
                                                               •   Noncredentialed provider—incorrect reporting of rendering
                                                                   provider.
 Falsification of financial                                    •   A first-tier or downstream entity can purport to have sufficient
                                          0               26
 solvency                                                          assets to cover claims when, in fact, it lacks financial solvency.
                                                               •   Falsification of medical record or dates of service.
 Falsification of records or                                   •   Member falsification of a medical referral.
                                          0               25
 other data                                                    •   Forged physician’s signature.
                                                               •   Forged or altered durable medical equipment (DME) prescription.
                                                                                                                  continued on next page




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse             36
Table C-1: Types of Potential Part C Fraud and Abuse Identified by MA Organizations in 2009
(Continued)
 Type of Fraud and
                                         Number of Incidents                                                    Examples
 Abuse


                                  Top Three MA         Remaining MA
                                  Organizations        Organizations

                                                                             •     Member sold DME to another party.
                                                                             •     Fraudulent use of benefits.
 Beneficiary abuse of                                                        •     Illegal use/sale of prescription drugs.
                                                  0                   18
 benefits                                                                    •     Alteration of claim by member.
                                                                             •     Beneficiary, a former practicing physician, wrote a prescription for
                                                                                   his own use.
 Quality of care issue                            0                   10     •     Member complaint of poor quality of products, services.
                                                                             •     Under a capitated arrangement, specialists may be paid by a
                                                                                   primary care physician (PCP) using a portion of the PCP’s
 Inappropriate physician                                                           capitation payment if a referral is made. Fraud can occur if the
                                                  0                     9
 incentive plans                                                                   PCP receiving capitation payment does not reimburse specialists
                                                                                   or does not refer members to specialists even if medically
                                                                                   necessary.
                                                                             •     Failure to generate or report complete and accurate information
                                                                                   upon which Government reimbursement depends, in whole or in
 Providing data to CMS
                                                  1                     8          part.
 that lack integrity
                                                                             •     Improperly reporting enrollment/disenrollment data to CMS to
                                                                                   inflate prospective payments.
 Health Insurance
 Portability and                                  0                     8    •     Member received another member's identification card.
 Accountability Act issue
 Collusion among                                                             •     Competing providers agree on minimum fees charged and
                                                  1                     7
 providers                                                                         capitation rates accepted.
                                                                             •     Self-referral.
                                                                             •     Improper soliciting by DME provider.
 Provider misconduct                              0                     7    •     Provider requires prospective patients to sign a form prior to
                                                                                   treatment that they are waiving their constitutional rights as
                                                                                   provided in Article I Section 21 of the Florida Constitution.
 Drug-seeking beneficiary                         0                     3    •     Member drug-seeking behavior.

 Possible member abuse                            0                     3    •     Possible physical or psychological abuse of member.

 Waiver of member                                                            •     Routinely waiving copayments and deductibles to misrepresent a
                                                  0                     3
 copayment                                                                         provider’s actual charge.
                                                                             •     For these incidents, MA organizations did not specify the type of
 Unspecified                                      0                  139           fraud, reported the type as miscellaneous, or provided a
                                                                                   description that was too vague to categorize.

     Total                              1,210,344                61,1931
Source: Office of Inspector General (OIG) analysis of MA organizations’ survey responses.
1
 The total number of incidents identified was 61,188. However, five MA organizations reported two types of fraud for one potential fraud and abuse incident.




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse                                  37
Table C-2: Types of Potential Part D Fraud and Abuse Identified by MA Organizations in 2009

 Type of Fraud and
                                   Number of Incidents                                        Examples
 Abuse


                              Top Three MA    Remaining MA
                              Organizations   Organizations

                                                                 •   Billing for brand-name drugs when generics are dispensed.
 Inappropriate billing for
                                   104,550               2,338   •   Billing for noncovered prescriptions as covered items.
 prescriptions
                                                                 •   Billing for prescriptions that are never picked up.

                                                                 •   Dispensing expired or adulterated prescription drugs.
 Inappropriate prescription                                      •   Dispensing without a prescription.
                                    32,110               3,764
 dispensing                                                      •   Splitting: pharmacist or mail-order pharmacy splits prescription
                                                                     to receive additional dispensing fee.
                                                                 •   Using the wrong billing code or unbundling the codes included in
                                                                     a larger, more inclusive set of codes, the health care provider is
 Improper coding                      8,800                 1
                                                                     reimbursed at a higher rate than if the correct billing codes were
                                                                     used and the services were billed together.
                                                                 •   Beneficiary consults a number of doctors for the purpose of
 Doctor shopping,                                                    inappropriately obtaining multiple prescriptions for narcotic
 potential drug abuse, or             1,200              3,101       painkillers or other drugs.
 stockpiling                                                     •   Beneficiary attempts to game her/his drug coverage by obtaining
                                                                     and storing large quantities of drugs and then disenrolling.
                                                                 •   Physicians write prescriptions outside the boundaries of their
 Inappropriate prescribing             800                637        scope of practice.
                                                                 •   Prescriber is on the OIG exclusion list.
                                                                 •   Misrepresentation of plan benefits.
                                                                 •   Misrepresentation of services.
 Marketing schemes                       0                695    •   Member received unwanted mail from another plan.
                                                                 •   Competitors cold-calling Medicare Part D members, i.e.,
                                                                     inappropriate soliciting.
                                                                 •   Pharmacy asking beneficiary to pay uncompensated amounts.
 Overcharging beneficiary
                                         0                492    •   Bait-and-switch pricing, i.e., beneficiary is led to believe a drug
 for prescriptions                                                   will cost one price, but at point of sale is charged a higher
                                                                     amount.
                                                                 •   Provider receives more than one payment for the same service
                                                                     and keeps the money, or the provider bills the beneficiary directly
 Double billing or balance
                                       377                  2        for the total amount of the bill including the amount of the charge
 billing
                                                                     that the provider has agreed to write off after the MA
                                                                     organization has paid.
                                                                 •   Potential fraud scenarios referred by the beneficiaries in
                                                                     response to their monthly Part D explanation of benefits
 Prescription errors/issues              0                310        discrepancies: members allege they did not receive dispensed
                                                                     prescriptions which were registered under their contract.
                                                                 •   Missing or invalid prescriptions.
 Attempts to steal
                                                                 •   Individual uses another person's Medicare or insurance card to
 beneficiary identity to                 2                190
                                                                     obtain prescriptions.
 obtain prescriptions
 Inappropriate prescribing                                       •   Physicians identified as prescribing high volume of controlled
                                         0                182
 of controlled substances                                            substances.
 Pharmacy unresponsive
                                         0                151    •   Pharmacy did not respond to desk audit or in-store audit request.
 to audit request
                                                                                                                  continued on next page




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse               38
Table C-2: Types of Potential Part D Fraud and Abuse Identified by MA Organizations in 2009
(Continued)

 Type of Fraud and
                                       Number of Incidents                                           Examples
 Abuse


                                 Top Three MA        Remaining MA
                                 Organizations       Organizations

                                                                       •   Plan sponsor or health care provider fails to provide medically
 Failure to provide
                                                                           necessary prescriptions that the organization is required to
 medically necessary                            0               124
                                                                           provide under law or under the contract, and that failure
 prescription drugs
                                                                           adversely affects or is likely to affect the beneficiary.
 Forged or altered                                                     •   Prescriptions are forged or altered by someone other than the
 prescriptions or other                         0               102        prescriber or pharmacist without prescriber approval to increase
 documents                                                                 quantity or number of refills.
                                                                       •   Beneficiary obtains prescription drugs from a provider and gives
                                                                           or sells this medication to someone else.
 Diverting prescriptions                        0                46
                                                                       •   Inappropriate consumption or distribution of a beneficiary's
                                                                           medications by a caregiver or anyone else.

 Enrollment/disenrollment                                              •   Ineligible member.
                                                0                38
 issue                                                                 •   Member had two insurance plans.

 Medical necessity or                                                  •   Medical appropriateness.
                                                0                20
 appropriateness issue                                                 •   Provider billing for unnecessary services.

 Theft of prescriber's
                                                                       •   In context of e-prescribing, includes theft of provider's login
 prescription pad or                            0                17
                                                                           information.
 prescriber number
                                                                       •   Cases opened as a result of law enforcement request for data in
                                                                           support of investigations.
 Request for information                        0                13    •   Request for assistance from external entity.
                                                                       •   Request from Attorney General on member and prescribers--top
                                                                           10 by cost/volume.
                                                                       •   Drug Enforcement Administration fraud investigation.
 Investigations                                 0                11
                                                                       •   Other type of investigation.
                                                                       •   Prescriber is offered inappropriate discounts, support services,
 Inducements, kickbacks,
                                                0                 5        educational grants, research funding, improper entertainment, or
 or bribes
                                                                           business courtesies.

                                                                       •   Submitting inaccurate or incomplete Prescription Drug Event data
 Providing data to CMS
                                                1                 4        or Part D plan quarterly data.
 that lacks integrity
                                                                       •   Inappropriate documentation of pricing information.
 Beneficiary true out-of-                                              •   Incorrect TrOOP calculation that results in improper payments by
 pocket (TrOOP) costs or                                                   CMS or beneficiary.
                                                0                 3
 low-income subsidy                                                    •   Beneficiary not receiving the low-income benefit approved by
 manipulation                                                              CMS.
 Unauthorized services                                                 •   Out of service area.
                                                0                 3
 or provider                                                           •   Failure to follow authorization rules.
                                                                       •   Questionable or suspicious billing practices.
 Suspect billing                                0                 1
                                                                       •   Overutilization.
                                                                       •   For these incidents, MA organizations either did not specify the
 Unspecified                                    0                61        type of fraud, reported the type as miscellaneous, or provided a
                                                                           description that was too vague to categorize.

     Total                              147,840               12,311
Source: OIG analysis of MA organizations’ survey responses.




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse                       39
         APPENDIX D

         Table D-1: Types of Corrective Actions Initiated by Medicare Advantage
         Organizations in 2009
                                                  Number of Part C Corrective                   Number of Part D Corrective
             Type of Corrective Action
                                                           Actions                                       Actions

                                                Top Three MA1          Remaining MA            Top Three MA     Remaining MA
                                                 Organizations         Organizations           Organizations    Organizations

             Prepayment review                          997,977                   2,005             100,906                   71

             Collection of overpayment                    11,626                  2,228                2,798             3,104

             Provider education                              578                  7,608                    0                  434

             Disciplinary action                               42                 1,267                    0                  61

             Postpayment review                                 1                   909                  65                   594

             Utilization monitoring                             0                   504                    0                  144

             Counseling/coaching                                0                   288                    0                   3

             Termination from network                          11                     80                   0                  132

             Employee training                                  0                     64                   0                  17

             Administrative actions                             0                     51                   0                   7

             Member education                                   0                     32                   0                   1

             Policy or procedure change                         0                     30                   0                  112

             Agent termination                                  0                     30                   0                   1

             Agent/broker training                              0                     11                   0                   0

             Monitoring                                         0                     10                   0                   0

             Referral for corrective action
                                                                0                      4                   0                   6
             or corrective action plan

             Case management                                    0                      1                   0                  21

             Exclusion from network
                                                                0                      0                   0                  44
             participation

             Other education efforts                            0                      0                   0                  37

             Claim correction/reversal                          0                      0                   0                   6

             Internal referrals                                 0                      0                   0                   3

             Unspecified                                        0                   126                    0                  13

                Total                                 1,010,235                  15,248             103,769              4,811
         1
          Medicare Advantage.
         Source: Office of Inspector General analysis of MA organizations’ survey responses.




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse                       40
      APPENDIX E

     Table E-1: Referrals to Other Entities for Further Investigation by Medicare Advantage
     Organizations in 2009
         Entity That Received
                                                                                                                            Total
         Referrals of Potential
                                              Number of Part C Referrals            Number of Part D Referrals         Number of
         Fraud and Abuse
                                                                                                                        Referrals
         Incidents

                                          Top Three MA1            Remaining MA    Top Three MA    Remaining MA
                                           Organizations           Organizations   Organizations   Organizations

         Medicare drug integrity
                                                         39                 275               0                  469         784
         contractors

         State insurance
                                                          0                 403               0                  67          470
         commissioners
         Office of Inspector General
                                                          0                 371               0                  47          418
         (OIG)
         Department of Justice                            0                 187               0                  158         345

         State agency                                     0                 218               0                  24          242

         State or local law
                                                          0                  74               0                  137         211
         enforcement

         Centers for Medicare &
                                                          0                  49               0                   4           53
         Medicaid Services

         Licensing board                                  0                  40               0                   8           48

         National Health Care
                                                          0                  19               0                   0           19
         Anti-Fraud Association

         Insurance fraud bureau                           0                   8               0                   3           11

         Medicaid agency                                  0                  10               0                   0           10

         State Board of Pharmacy                          0                   0               0                   4            4

         National Association of
                                                          0                   1               0                   0            1
         Insurance Commissioners

         Other entities                                   0                  34               1                   6           40

            Total                                        39                1,689              1                  927       2,656
     1
      Medicare Advantage.
     Source: OIG analysis of MA organizations’ survey responses.




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse               41
         APPENDIX F
         Agency Comments




              /,p'''''' ...
          (       ~	DEPARTMENT OF HEALTH & HUMAN SERVICES                                              Cenler. for Medicare & Medicaid Services


              ,,~~\"" 	                                                                                Administrator
                                                                                                       Washinglon. DC 20201




                              DATE:            DE': ~. 8 2011
                              TO: 	         Daniel R. Levinson 

                                            InspectoI General 


                              FROM: 	       Man~ Ta~nner 
         /S/
                                            Acting Adb:ljjjstrator 


                              SUBJECT: 	 Office ofInspector General (OIG) Draft Report: "Medicare Advantage
                                         Organizations' Identification of Potential Fraud and Abuse" (OEI -03-10-00310)


                              The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                              comment on the Office of Inspector General (OIG) draft report entitled, "Medicare Advantage
                              Organizations' Identification of Potential Fraud and Abuse." This report has multiple objectives.
                              First, it seeks to determine the extent to which Medicare Advantage (MA) organizations identify
                              potential fraud and abuse related to their Part C and, if applicable, Part D plans. Secondly, it
                              determined the extent to which MA organizations conduct inquiries, initiate corrective actions,
                              and make referrals for further investigation in response to potential fraud and abuse incidents.

                              MA organizations' efforts to identify and address potential fraud and abuse are crucial to
                              protecting the integrity of the MA program. These organizations are required to have
                              compliance plans in place that include programs to detect, correct and prevent fraudulent and
                              abusive activity.

                              We appreciate the OIG's efforts in working with CMS to help ensure that vulnerabilities are
                              addressed. CMS response to each of the OIG recommendations and other comments follow.

                              OIG Recommendation

                              Ensure that MA organizations are implementing programs to detect, correct, and prevent fraud,
                              waste, and abuse, as required in their compliance plans, so that all potential Part C and Part D
                              fraud and abuse incidents may be identified.

                              CMS Response

                              The CMS concurs with this recommendation. As noted in OIG's findings, CMS already
                              conducted 33 compliance plan audits in 2010. These compliance program audits include an
                              evaluation of an MA organizations' implementation and effectiveness of its programs to detect,
                              correct, and prevent fraud, waste, and abuse.




OEI-03-10-00310 Medicare Advantage Organizations' Identification of Potential Fraud and Abuse                               42
       Agency Comments (Continued)




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse   43
      Agency Comments (Continued)




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse   44
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and Linda M. Ragone, Deputy Regional Inspector General.
                  Amy Sernyak served as the team leader for this study. Other principal
                  Office of Evaluation and Inspections staff from the Philadelphia regional
                  office who contributed to the report include Conswelia McCourt and
                  Joanna Bisgaier; central office staff who contributed include Kevin Farber
                  and Rita M. Wurm.




OEI-03-10-00310 Medicare Advantage Organizations’ Identification of Potential Fraud and Abuse   45
                      Office of Inspector General
                                         http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out through
a nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all
50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The investigative
efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
